App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
U.S. EQUAL EMPLOYMENT
OPPORTUNITY COMMISSION,
Petitioner-Appellant,
v.

No. 17-16786
D.C. No.
2:16-mc-00047-NVW
MEMORANDUM*

VF JEANSWEAR LP,

(Filed May 1, 2019)

Respondent-Appellee.
Appeal from the United States District Court
for the District of Arizona
Neil V. Wake, District Judge, Presiding
Argued and Submitted April 11, 2019
Pasadena, California
Before: GRABER and BYBEE, Circuit Judges, and
HARPOOL,** District Judge.
The Equal Employment Opportunity Commission
(“EEOC”) appeals the district court’s decision declining
to enforce a subpoena issued by the EEOC against VF
Jeanswear. Following a charge of discrimination filed
by L.B., a former employee of VF Jeanswear, the EEOC
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The Honorable M. Douglas Harpool, United States District Judge for the Western District of Missouri, sitting by designation.

App. 2
subpoenaed a wide range of employment information
from VF Jeanswear relating to its supervisors, managers, and executive employees. We review the district
court’s decision not to enforce the subpoena for abuse
of discretion. McLane Co., Inc. v. EEOC, 137 S. Ct.
1159, 1170 (2017).
1. The district court abused its discretion when
it held that the subpoenaed information was not relevant to L.B.’s charge. For an EEOC subpoena to be enforceable, it must seek information that is relevant to
the charge under investigation. EEOC v. Shell Oil Co.,
466 U.S. 54, 68-69 (1984). The relevance standard allows “access to virtually any material that might cast
light on the allegations against the employer.” Id.
L.B. alleged that because of her sex, she was harassed, demoted, underpaid, and not offered opportunities
for promotion. L.B. also alleged that female employees
generally were discriminated against because of their
sex. Specifically, she stated “Females are not afforded
the opportunity in top level positions. Top level positions are male dominated.”
In conducting its relevance analysis, the district
court proceeded from the premise that only L.B.’s personally-suffered harms could be considered. However,
there is no legal basis for limiting the scope of the relevance inquiry only to the parts of the charge relating
to the personally-suffered harm of the charging party.
Indeed, we have held otherwise. EEOC subpoenas
are enforceable so long as they seek information relevant to any of the allegations in a charge, not just those

App. 3
directly affecting the charging party. EEOC v. Fed. Express Corp., 558 F.3d 842, 855 (9th Cir. 2009).
2. The district court also abused its discretion
when it held that the subpoena was unduly burdensome. It is the producing party’s burden to prove that
compliance would be unduly burdensome. EEOC v.
Children’s Hosp. Med. Ctr. of N. Cal., 719 F.2d 1426,
1428 (9th Cir. 1983) (en banc).
The district court held that compliance with the
subpoena would impose an undue burden to the extent it would require VF Jeanswear to produce information not contained in the computer systems. The
district court did not make an explicit finding as to the
precise cost of compliance. For its part, VF Jeanswear
represented that compliance would cost an estimated
$10,698.00.
The EEOC offered into evidence the declaration
of Ronald Edwards, who presented evidence that VF
Jeanswear’s claim of undue burden was unfounded
and substantially overstated. VF Jeanswear did not
proffer any evidence refuting Edwards’ declaration.
Even if Edwards’ declaration had been rebutted, VF
Jeanswear’s estimated cost of complying with the subpoena as part of an investigation into systemic and
unlawful discrimination does not unduly burden a
company with approximately 2,500 employees.
The EEOC has represented that it no longer seeks
information concerning “age” and “reason for termination” from VF Jeanswear. The EEOC also has represented that it no longer seeks information predating

App. 4
2012 for subparagraphs (f ) and (g) of the subpoena. We
hold the EEOC to those representations.
REVERSED and REMANDED with instructions to enforce the subpoena as written except as to
information pertaining to age and reason for termination and except as to information predating 2012 for
subparagraphs (f ) and (g).

App. 5
WO
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Equal Employment Opportunity No. MC-16-00047PHX-NVW.
Commission,
Petitioner,

ORDER
(Filed Jul. 5, 2017)

v.
VF Jeanswear, LP,
Respondent.

Before the Court is the Application Why an Administrative Subpoena Should Not Be Enforced (Doc.
1), Subpoena No. PHX-15-041, issued by the Equal Employment Opportunity Commission on August 12,
2015. (Doc. 1.) The Court has considered the parties’
briefing, oral argument, and supplemental briefs.
(Docs. 1, 7, 11, 16, 17, 23, 26, 28.)
I.

BACKGROUND

On July 3, 2014, Lori Bell filed a charge of discrimination with the EEOC (“Charge”) against VF
Jeanswear, LP (“Jeanswear”), alleging discrimination
based on sex and age and violation of the Equal Pay
Act. Bell stated:
- I had been working for Respondent since
September 15, 1985, and last position held
was Executive Sales Representative. On February 28, 2014, I was forced to resign my

App. 6
position due to being demoted and harassed
and no reason given. . . . I was offered a position with less pay and less responsibilities. . . .
I requested a lateral move but it was denied. . . . I was also subjected to harassing
comments to include but not limited to my
manager (WL) stating “isn’t great to see all
they young men being promoted in top positions and not gray hairs walking around like
us”. I was also subjected to less pay than similarly situated males performing substantially the same work. During my tenure with
the Respondent I was not offered any higher
level position than Executive Sales Representative, rather demoted to a lesser position
and significantly less pay. Females are not afforded the opportunity in top level positions.
Top level positions are male dominated.
- I believe I and a class of females have been
discriminated against because of sex (female),
in violation of Title VII of the Civil Rights Act
of 1964, as amended. I have also been discriminated against because of age (48), in violation
of the Age Discrimination in Employment Act,
as amended. I have also been discriminated
against because of sex (female), in violation of
the Equal Pay Act, as amended.
On June 30, 2014, before filing the Charge, Bell
filed a lawsuit against Jeanswear in Maricopa County
Superior Court, alleging gender and age discrimination as well as violations of equal wage statutes. On
August 28, 2014, Jeanswear removed the lawsuit to
federal court. On December 18, 2014, upon Bell’s

App. 7
request, the EEOC issued Bell a right-to-sue notice,
which indicated that it was unlikely the EEOC would
be able to complete its processing within 180 days from
the filing of the Charge, and it would continue administrative processing of her gender and age discrimination claims.
On November 12, 2014, the EEOC sent Jeanswear
its First Request for Information. On February 16,
2015, Jeanswear responded with substantial information, but objected to Request No. 10 on grounds that
it was unduly burdensome and not relevant to the issues involved in the Charge. On March 26, 2015, the
EEOC sent Jeanswear a modified Request No. 10. On
April 13, 2015, Jeanswear renewed its objection, contending that even as narrowed, the request sought information not reasonably related to the Charge. On
July 29, 2015, Jeanswear received the EEOC’s first
subpoena and on July 30, 2015, submitted a petition to
revoke the subpoena. On August 6, 2015, the EEOC
withdrew the subpoena. On August 21, 2015,
Jeanswear received a second subpoena from the
EEOC, which was a corrected version of the first subpoena. On August 26, 2015, Jeanswear submitted a petition to revoke the second subpoena.
Subpoena No. PHX-15-041, issued August 12,
2015 (“Subpoena”) directs Respondent to:
Submit an electronic database identifying all
supervisors, managers, and executive employees at VF Jeanswear’s facilities during the relevant period, January 1, 2012, to present. For
each individual, provide:

App. 8
a.

employee identification number, if
applicable,

b.

name,

c.

age and sex,

d.

facility name and location,

e.

date of hire,

f.

position(s) held and date in each position,

g.

if no longer employed, provide date of
termination, and reason for termination,

h.

last known home address, e-mail,
SSN, and telephone number.

The EEOC asserts that the information sought is relevant to Bell’s individual and class claims regarding
lack of promotion opportunities for women and genderbased pay disparities. The EEOC also contends that
the information will provide the identities of witnesses
and others who may be victims of disparate treatment
and may also help the EEOC formulate other requests
for information. In its reply brief, the EEOC stated it
is willing to narrow the scope of subparagraphs (f ) and
(g) of the Subpoena to require only responsive information dating back to January 1, 2012.
II.

LEGAL STANDARD

Whenever a charge is filed with the EEOC by a
person claiming to be aggrieved, alleging that an

App. 9
employer has engaged in an unlawful employment
practice, the EEOC “shall make an investigation
thereof.” 42 U.S.C. § 2000e-5(b). “In connection with
any investigation of a charge filed under section 2000e5 of [Title 42], the [EEOC] or its designated representative shall at all reasonable times have access to,
for the purpose of examination, and the right to copy
any evidence of any person being investigated or proceeded against that relates to unlawful employment
practices covered by [subchapter VI] and is relevant to
the charge under investigation.” 42 U.S.C. § 2000e-8(a).
The EEOC may issue an administrative subpoena requiring production of “any evidence of any person being investigated or proceeded against that relates to
any matter under investigation or in question” and
may seek judicial enforcement to compel compliance.
42 U.S.C. § 2000e-9 (incorporating 29 U.S.C. § 161).
The Supreme Court recently summarized the role
of the district court in enforcing an EEOC subpoena:
A district court’s role in an EEOC subpoena
enforcement proceeding, we have twice explained, is a straightforward one. A district
court is not to use an enforcement proceeding
as an opportunity to test the strength of the
underlying complaint. Rather, a district court
should satisfy itself that the charge is valid
and that the material requested is “relevant”
to the charge. It should do so cognizant of the
generous construction that courts have given
the term “relevant.” If the charge is proper
and the material requested is relevant, the
district court should enforce the subpoena

App. 10
unless the employer establishes that the subpoena is too indefinite, has been issued for an
illegitimate purpose, or is unduly burdensome.
McLane Co. v. EEOC, ___ U.S. ___, 137 S. Ct. 1159, 1165
(2017) (internal quotation marks, alteration marks,
and citations omitted). “The critical questions are: (1)
whether Congress has granted the authority to investigate; (2) whether procedural requirements have been
followed; and (3) whether the evidence is relevant and
material to the investigation.” EEOC v. Children’s
Hosp. Med. Ctr., 719 F.2d 1426, 1428 (9th Cir. 1983),
abrogated on other grounds by Gilmer v. Interstate/
Johnson Lane Corp., 500 U.S. 20 (1991). When deciding
whether to enforce a subpoena issued by the EEOC,
“any effort by the court to assess the likelihood that the
Commission would be able to prove the claims made in
the charge would be reversible error.” EEOC v. Shell
Oil Co., 466 U.S. 54, 72 n.26 (1984).
III. ANALYSIS
A. In the Ninth Circuit the EEOC Has
Authority to Investigate a Charge of
Discrimination After Issuing a Rightto-Sue Notice.
Whenever a charge is filed with the EEOC, the
EEOC must investigate. 42 U.S.C. § 2000e-5(b). “If the
[EEOC] determines after such investigation that there
is not reasonable cause to believe that the charge is
true, it shall dismiss the charge and promptly notify

App. 11
the person claiming to be aggrieved and the respondent of its action.” Id. If the EEOC dismisses the charge
or has not filed a civil action within 180 days of the
filing of the charge, the EEOC shall notify the charging
party, who may bring a civil action within 90 days of
receiving the right-to-sue notice. 42 U.S.C. § 2000e5(f )(1).
By regulation the EEOC claims the authority to
keep the charge administratively open and continue issuing administrative subpoenas against an employer,
even though the charge proceeding has ended in fact
after a charging party has been issued a right-to-sue
notice and has brought a private action. EEOC v. Fed.
Express Corp., 558 F.3d 842, 845, 854 (9th Cir. 2009).
“[E]ven though the EEOC normally terminates the
processing of the charge when it issues the right-to-sue
notice, it can, under limited circumstances continue to
investigate the allegations in the charge, which includes the authority to subpoena information relevant
to that charge.” Id. at 850. In Federal Express, the
EEOC decided to continue investigating the charge
“because it involved a possible policy or pattern of discrimination affecting others.” Id. The Ninth Circuit
reasoned that the “EEOC’s investigatory authority
serves a greater purpose than just investigating a
charge on behalf of an individual,” and “[b]y continuing
to investigate a charge of systemic discrimination even
after the charging party has filed suit, the EEOC is
pursuing its obligation to serve the public interest.” Id.
at 852.

App. 12
To the contrary is EEOC v. Hearst, 103 F.3d 462
(5th Cir. 1997), which held the charge no longer provides a basis for EEOC investigation and subpoena after the charging party has requested and received a
right-to-sue notice and has brought an action.
Jeanswear acknowledges, however, that Ninth Circuit
precedent controls here.
B. Whether the Requested Information Is
Relevant to the Charge.
“[T]he EEOC’s investigative authority is tied to
charges filed with the Commission . . . the EEOC is entitled to access only evidence ‘relevant to the charge
under investigation.’ ” EEOC v. Shell Oil Co., 466 U.S.
54, 64 (1984). “Relevancy is determined in terms of the
investigation rather than in terms of evidentiary relevance.” Fed. Express, 558 F.3d at 854. The scope of the
charge should be liberally construed:
“[T]he EEOC’s investigatory power is broader
than the four corners of the charge; it encompasses not only the factual allegations contained in the charge, but also any information
that is relevant to the charge. Thus, the EEOC
need not cabin its investigation to a literal
reading of the allegations in the charge.”
EEOC v. Kronos Inc., 620 F.3d 287, 299 (3d Cir. 2010).
The EEOC has authority to investigate charges of discrimination beyond the alleged individual discrimination where the individual charge “raises the specter of

App. 13
systemic discrimination.” Fed. Express, 558 F.3d at
855.
The Charge alleges that Jeanswear harassed and
discriminated against Bell based on sex and age. The
Charge further states, “Females are not afforded the
opportunity in top level positions. Top level positions
are male dominated.” Bell claimed to have been demoted from a sales position, never held a management
position, never applied for one, and never was refused
or demoted from one. It also states that Bell believed
that she and a class of females had been discriminated
against because of sex. The EEOC contends these sufficiently “raise the specter of systemic discrimination.”
See, e.g., EEOC v. United Parcel Serv., Inc., 587 F.3d
136, 139 (2d Cir. 2009) (per curiam) (nationwide information was relevant to religious discrimination charge
stating, “I also believe that Respondent has a pattern
or practice of refusing to accommodate the religious observances, practices and beliefs of its employees”).
Even when systemic discrimination is not alleged, information regarding employees other than the charging party may provide reasonable and relevant context
for an individual charge of employment discrimination. Kronos, 620 F.3d at 298; EEOC v. Ford Motor
Credit Co., 26 F.3d 44, 47-48 (6th Cir. 1994); EEOC v.
Roadway Express, Inc., 261 F.3d 634, 640 (6th Cir.
2001).
“[C]ourts have generously construed the term ‘relevant’ and have afforded the Commission access to virtually any material that might cast light on the
allegations against the employer.” Shell Oil Co., 466

App. 14
U.S. at 68-69. However, relevance should not be construed so broadly as to eliminate the requirement. Id.
at 69. The requirement of relevance “is designed to
cabin the EEOC’s authority and prevent fishing expeditions.” EEOC v. United Air Lines, Inc., 287 F.3d 643,
653 (7th Cir. 2002); accord Kronos, 620 F.3d at 297.
The Ninth Circuit has not specifically addressed
whether deference is owed to the EEOC’s determination of relevance. Although the Fourth Circuit has deferred to the EEOC’s appraisal of what is relevant
because of its expertise, the Sixth Circuit has the better of it that courts are not required to defer to the
EEOC’s determination of relevance. Compare EEOC v.
Randstad, 685 F.3d 433, 448 (4th Cir. 2012), with
EEOC v. Ford Motor Credit Co., 26 F.3d 44, 47 (6th Cir.
1994). “If Congress had meant for EEOC’s determination of relevance simply to be accepted by the courts, it
would not have provided for judicial review of these
data requests.” Ford Motor, 26 F.3d at 47.
The Subpoena seeks “an electronic database identifying all supervisors, managers, and executive employees at VF Jeanswear’s facilities [companywide and
nationwide] [from] January 1, 2012, to present,”1 and
for each individual identified production of routine employment information, such as name, contact information, age, sex, date of hire, and employment history
within the company. In addition, the Subpoena seeks
the reason for termination for individuals who are no
longer employed by Jeanswear. Regarding positions
1

The Subpoena was issued August 12, 2015.

App. 15
held, date in each position, date of termination, and
reason for termination, the EEOC has limited its request to require only responsive information beginning
January 1, 2012.
Jeanswear contends (1) age and reason for termination are not relevant to the EEOC’s investigation of
whether Jeanswear denies women access to “top level”
promotions and (2) the inclusion of all supervisors,
managers, and executive employees exceeds what
should be considered “top level” positions as described
in the Charge. However, “employment context is relevant to a charge of employment discrimination.” Ford
Motor, 26 F.3d at 47 (finding comparative information
“absolutely essential” to a determination of discrimination).
For example, in Kronos, the charging party alleged
she was not hired for work as a cashier, bagger, or
stocker because of her disability, which caused her to
receive a low score on an assessment the employer
used in the hiring process. 620 F.3d at 297-98. The
EEOC issued a third-party subpoena to the creator of
the assessment, seeking validity studies, job analyses
related to any positions at the employer’s company, and
other information, which the district court limited in
geography, time, and job position. The Third Circuit
held that the district court applied too restrictive a
standard of relevance by imposing those limitations. It
stated, “[T]he EEOC is entitled to information that
‘may provide a useful context’ for evaluating employment practices under investigation, in particular when
such information constitutes comparative data.” Id. at

App. 16
298. Further, it was “entirely appropriate” for the
EEOC to investigate the employer’s nationwide use of
the assessment for all job positions. Id.
In contrast, the Tenth Circuit concluded that the
EEOC’s subpoena for any computer files created or
maintained by the employer that contained electronic
data about current and/or former employees and applicants throughout the United States during a two-year
period was not relevant to disability discrimination
charges filed by two men who received a conditional
offer of employment and were not hired after a medical
screening procedure. EEOC v. Burlington N. Santa Fe
R.R., 669 F.3d 1154, 1158 (10th Cir. 2012). The “incredibly broad request” for all employee information nationwide was not justified as necessary to create “a
carefully tailored request” for substantive information
regarding two charges that alleged only individual discrimination. Id.
In Royal Caribbean Cruises, an Argentinian national filed a charge with the EEOC, alleging discrimination on the basis of disability when the employer
refused to renew his employment contract after he was
diagnosed with HIV and Kaposi Sarcoma, but declared
fit for duty by his physician. EEOC v. Royal Caribbean
Cruises, Ltd., 771 F.3d 757, 759 (11th Cir. 2014). The
employer admitted it terminated the employee because of his medical condition, but contended that the
Americans with Disabilities Act did not apply to a foreign national employed on a Bahamian ship, Bahamas
Maritime Authority medical standards for seafarers
applied, and those standards disqualified the charging

App. 17
party from duty at sea. The EEOC requested a list of
all employees who were discharged or whose contracts
were not renewed during a certain period due to a medical reason and detailed information for each, plus all
persons who applied for a position within the relevant
period who were not hired due to a medical reason and
the same detailed information for each. The employer
provided records only for employees or applicants who
were United States citizens. The EEOC subpoenaed
the records for non-United States citizens. The Eleventh Circuit held that the information sought regarding employees and applicants from around the world
suffering from any medical condition would not shed
light on the individual charge. Where the employer admitted it terminated the employee because of his medical condition, statistical data were not needed to
determine whether an employer’s facially neutral explanation for the adverse employment decision was
pretext for discrimination. Id. at 761. “Although statistical and comparative data in some cases may be relevant in determining whether unlawful discrimination
occurred, the EEOC was required to make some showing that the requested information bears on the subject
matter of the individual complaint.” Id. Thus, the information sought was not relevant to the charge.
Here, the Charge alleges a one-off discriminatory
demotion and unequal pay.2 Though she never held,
2

The evidence at trial was that Bell was one of 17 customer
sales representatives, a non-managerial position. One person had
to be demoted in an undisputedly legitimate business decision.
The local supervisor, a female, selected Bell for demotion over all

App. 18
sought, or was refused a managerial or “top” position,
she said females are not afforded the opportunity of top
positions. The EEOC does not demonstrate that its investigatory and subpoena powers are triggered by tips
or hunches, but it contends this passage empowers it
to investigate company-wide sex discrimination at
Jeanswear concerning promotions. The requested information regarding all supervisors, managers, and executive employees does not bear on unequal pay. From
Bell, this passage is just a tip not bearing on her own
experience or detriment.
The EEOC contends this company-wide subpoena
would provide relevant context and comparative data
regarding those who have been hired for or promoted
to these positions. It says the reasons for termination
of those no longer employed could be related to the
lack of promotion opportunities.3 Indeed, under the
language of some cases, everything else about employment could provide relevant context to a discrimination charge. Those cases decline closer scrutiny of the
subpoenaed evidence for how it could or could not the
help the inquiry. But other cases do not stop at the outset, and they do question more specifically about the
how the evidence could help before deciding relevance.

male counterparts, despite her performance metrics superior to
those of some of the males. The case had nothing to do with systemic employment practices, management jobs, or promotion.
3
This is nonsensical. Only lack of vacancies, not reasons for
vacancies, can explain lack of promotion opportunities. Nor has
there been any suggestion of lack of promotion opportunities.

App. 19
The two paths can leave a trial judge at a loss, especially in circuits with both kinds of precedents.
The crux of this Court’s inquiry is whether Bell’s
charge of demotion is enough for a companywide and
nationwide subpoena for discriminatory promotion, a
discriminatory practice not affecting the charging
party. The answer could be yes or no, depending on
which cluster of cases one yields to, and if one follows
the cases that allow some inquiry, how remote the subpoena is from the discrimination in question. The “look
no further” approach that the EEOC urges comes close
to allowing universal investigation of any employer
with a pending (or concluded) charge. But we know
that is not correct.
This Court hesitates both ways but must go one
way. On balance and even under a generous reading of
relevance, the nationwide, companywide search for
systemic discrimination in promotions to top positions
is too removed from Bell’s charge of one-off demotion
from a sales job to be relevant in a practical sense, as
opposed to the EEOC’s indefinitely elastic sense.
Therefore, the Application must be denied.
C. Whether Compliance with the Subpoena Is Unduly Burdensome.
The Ninth Circuit has not specifically addressed
how to measure undue burden on the respondent.
Some courts have required the respondent to show
that producing the documents would seriously disrupt
normal business operations. E.g., EEOC v. Randstad,

App. 20
685 F.3d 433, 451 (4th Cir. 2012); EEOC v. United Air
Lines, Inc., 287 F.3d 643, 653 (7th Cir. 2002); EEOC v.
Citicorp Diners Club, Inc., 985 F.2d 1036, 1040 (10th
Cir. 1993). These courts consider the cost of production
relative to the company’s normal operating costs to be
an important factor. Randstad, 685 F.3d at 452; United
Air Lines, 287 F.3d at 653-54 (comparing personal and
financial burden to the employer’s resources). However, the Seventh Circuit also said, “What is unduly
burdensome depends on the particular facts of each
case and no hard and fast rule can be applied to resolve
the question.” United Air Lines, 287 F.3d at 653.
The Eleventh Circuit expressly rejected a rigid
rule for finding undue burden and has included a number of factors, including balancing hardships and benefits, rather than requiring specific types of evidence or
a single factor. EEOC v. Royal Caribbean Cruises, Ltd.,
771 F.3d 757, 763 (11th Cir. 2014). It agreed with the
Sixth Circuit that “this court’s task is to weigh the
likely relevance of the requested material to the investigation against the burden to [the employer] of producing the material.” Id. (quoting EEOC v. Ford Motor
Credit Co., 26 F.3d 44, 47 (6th Cir. 1994)). “[T]he likely
relevance . . . against the burden” captures the inquiry.
First, the value of data to be gathered and created
concerning all supervisors, managers, and executive
employees appears to be attenuated at best. The data
are not targeted at any employment practice; nor does
the EEOC identify any discriminatory practice that
might emerge from analysis of the extensive data it demands. Nor does it identify specific modes of data

App. 21
analysis it would apply. The incremental statistical
value of polling individuals’ memories and review of
bulk files beyond what is available from computer
sources is likely to be nil. The EEOC’s focus in its briefs
is on its near-absolute right to the data, not anything
specific it would do with the data to yield usable conclusions. So the balance of relevance against burden
starts with faith, hope, and mystery on the EEOC’s
side.
On the burden side, the Subpoena directs
Jeanswear to produce an electronic database identifying all supervisors, managers, and executive employees at VF Jeanswear’s facilities from January 1, 2012,
to August 21, 2015. For each person identified, the
Subpoena seeks name, employee identification number, Social Security number, last known contact information (address, telephone, email), age, sex, facility
name and location, and date of hire. It also seeks the
position, and if no longer employed at any time after
January 1, 2012, the date and reason for termination.
As of August 15, 2016, Jeanswear had about 2,500
employees. Jeanswear estimated that more than 600
employees have been in a supervisor, manager, or executive position during the relevant period. It estimated that currently about 400 employees hold one of
those positions. So that is about 200 people who have
terminated. Jeanswear stated that it does not maintain in its ordinary course of business an electronic database with the requested information, and personnel
files are maintained at the location where the employee works or reports or at an offsite location.

App. 22
Jeanswear estimated that it would require 24 hours of
work to identify and prepare a complete list of the employees, 300 hours to retrieve and compile information
that is available from its computerized personnel records, and additional time to obtain personnel files not
available from its computerized personnel records.
Jeanswear stated that it has only one employee with
knowledge and expertise with each of its three human
resources information systems and necessary security
clearance to retrieve data from the systems. Based on
that employee’s base salary, Jeanswear estimated the
cost of compliance as $10,698.00. It did not provide information regarding its normal operating costs or state
whether compliance would “seriously disrupt” normal
business operations, but it is apparent that diverse
other people in different places would have to contribute as well.
Jeanswear asserted that compliance with the Subpoena would require compilation of data on an individual basis from three human resources information
systems. Jeanswear began using its current human resources information system, Workday, on January 1,
2015. From 2002 through December 31, 2014, it used
PeopleSoft. From April 1, 1990, to 2002, it used a system known as CHRS. Because the EEOC no longer
seeks employment history before 2012, it may not be
necessary to retrieve data from CHRS. With its reply
brief in this Court, the EEOC submitted evidence that
Workday and PeopleSoft routinely permit users to create customized reports of information kept in the ordinary course of business regarding multiple employees.

App. 23
Human resources databases routinely include fields
for employee name, identification number, birth date,
social security number, date of hire, date of termination, position, change of position, work site, and contact
information.4 Both Workday and PeopleSoft permit
employers to extract multiple pieces of information for
multiple employees and export them to a Microsoft
Excel spreadsheet. Thus, it would not be necessary
for Jeanswear to prepare a narrative job history for
each responsive employee, which was included in
Jeanswear’s estimated cost of compliance. Jeanswear
has not had an opportunity to respond to this, as it
came in the EEOC’s reply brief.
The Court’s penultimate observation on this dispute over burden is that it has not been presented to
the Court in a sensible way. It progressed in the presubpoena, subpoena, and court litigation phases without the prompt and compromising dialog of real needs
and practical burdens that civil litigators owe and district judges expect in document litigation. Instead, the
demands, claims of hardship, denials of hardship, unilateral suggestions of alternatives, and rebuttals of alternatives have evolved as the briefs came in. This
Court does not believe the law requires it to adjudicate
an unripe and evolving process. The Court is required
to adjudicate a subpoena enforcement that has already
reached stasis in the earlier processes. This Court
could order the parties to resume and complete the
process that was not concluded when they came to
4

Jeanswear did not identify what information it has kept in
its computerized records.

App. 24
court. They could then be required to submit a statement of facts on which they agree and statements of
their last and best positions, identifying the specific
disputes of fact on which, God forbid, they demand
trial. This Court cannot be required to figure that out
for the parties.
But in the specific circumstances of this case, there
would be a better resolution of the dispute over hardship. The EEOC counters Jeanswear’s claim of hardship from extensive non-computerized compilation of
data and people’s memories by asserting that
Jeanswear’s computer system can yield almost everything the EEOC demands. If required to decide the
question of hardship, the Court would hold the EEOC
to its assertion and would order Jeanswear to supply
all and only the data that its computer system will
yield, with no searches of files or people’s memories.
The Court finds that level of compliance, on balance, to
be reasonable. A substantially more burdensome compliance would be unduly burdensome. The entire universe of data is not needed for statistical analysis. If
this Court errs in not enforcing the subpoena because
it exceeds relevance, the Court would enforce the subpoena to this extent and no further.
Finally, it is impossible to labor through this prolonged and costly dispute without noting that it is
needless. The EEOC previously exerted itself to give
dead charges eternal life for subpoenas, and though it
succeeded in this Circuit, that success may be unstable. In this case, the EEOC presses the limits of burdensomeness and relevance in a party charge. But to

App. 25
get the data, the EEOC only needed to file a commissioner’s charge framed as it wished.
IT IS THEREFORE ORDERED that the Application Why an Administrative Subpoena Should Not Be
Enforced (Doc. 1), Subpoena No. PHX-15-041, issued by
the Equal Employment Opportunity Commission on
August 12, 2015 (Doc. 1) is denied.
The Clerk shall terminate this matter.
Dated this 5th day of July 2017.
/s/

Neil V. Wake
Neil V. Wake
Senior United States
District Judge

App. 26
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
U.S. EQUAL EMPLOYMENT
No. 17-16786
OPPORTUNITY COMMISSION, D.C. No. 2:16-mc00047-NVW
Petitioner-Appellant,
District of Arizona,
v.
Phoenix
VF JEANSWEAR, LP,
ORDER
Respondent-Appellee.
(Filed July 10, 2019)
Before: GRABER and BYBEE, Circuit Judges, and
HARPOOL,* District Judge.
The panel has voted to deny Appellee’s petition for
panel rehearing. Judges Graber and Bybee have voted
to deny Appellee’s petition for rehearing en banc, and
Judge Harpool has so recommended.
The full court has been advised of the petition for
rehearing en banc, and no judge of the court has requested a vote on it.
Appellee’s petition for panel rehearing and rehearing en banc is DENIED.

* The Honorable M. Douglas Harpool, United States District
Judge for the Western District of Missouri, sitting by designation.

App. 27
42 U.S.C. § 2000e-5
(a) Power of Commission to prevent unlawful
employment practices
The Commission is empowered, as hereinafter provided, to prevent any person from engaging in any unlawful employment practice as set forth in section
2000e-2 or 2000e-3 of this title.
(b) Charges by persons aggrieved or member of
Commission of unlawful employment practices
by employers, etc.; filing; allegations; notice to
respondent; contents of notice; investigation by
Commission; contents of charges; prohibition on
disclosure of charges; determination of reasonable cause; conference, conciliation, and persuasion for elimination of unlawful practices;
prohibition on disclosure of informal endeavors
to end unlawful practices; use of evidence in subsequent proceedings; penalties for disclosure of
information; time for determination of reasonable cause
Whenever a charge is filed by or on behalf of a person
claiming to be aggrieved, or by a member of the Commission, alleging that an employer, employment
agency, labor organization, or joint labor-management
committee controlling apprenticeship or other training
or retraining, including on-the-job training programs,
has engaged in an unlawful employment practice, the
Commission shall serve a notice of the charge (including the date, place and circumstances of the alleged unlawful employment practice) on such employer,

App. 28
employment agency, labor organization, or joint labormanagement committee (hereinafter referred to as the
“respondent”) within ten days, and shall make an investigation thereof. Charges shall be in writing under
oath or affirmation and shall contain such information
and be in such form as the Commission requires.
Charges shall not be made public by the Commission.
If the Commission determines after such investigation
that there is not reasonable cause to believe that the
charge is true, it shall dismiss the charge and promptly
notify the person claiming to be aggrieved and the respondent of its action. In determining whether reasonable cause exists, the Commission shall accord
substantial weight to final findings and orders made
by State or local authorities in proceedings commenced
under State or local law pursuant to the requirements
of subsections (c) and (d). If the Commission determines after such investigation that there is reasonable
cause to believe that the charge is true, the Commission shall endeavor to eliminate any such alleged unlawful employment practice by informal methods of
conference, conciliation, and persuasion. Nothing said
or done during and as a part of such informal endeavors may be made public by the Commission, its officers
or employees, or used as evidence in a subsequent proceeding without the written consent of the persons concerned. Any person who makes public information in
violation of this subsection shall be fined not more than
$1,000 or imprisoned for not more than one year, or
both. The Commission shall make its determination on
reasonable cause as promptly as possible and, so far as
practicable, not later than one hundred and twenty

App. 29
days from the filing of the charge or, where applicable
under subsection (c) or (d), from the date upon which
the Commission is authorized to take action with respect to the charge.
(c) State or local enforcement proceedings; notification of State or local authority; time for filing charges with Commission; commencement of
proceedings
In the case of an alleged unlawful employment practice
occurring in a State, or political subdivision of a State,
which has a State or local law prohibiting the unlawful
employment practice alleged and establishing or authorizing a State or local authority to grant or seek
relief from such practice or to institute criminal proceedings with respect thereto upon receiving notice
thereof, no charge may be filed under subsection (a) by
the person aggrieved before the expiration of sixty
days after proceedings have been commenced under
the State or local law, unless such proceedings have
been earlier terminated, provided that such sixty-day
period shall be extended to one hundred and twenty
days during the first year after the effective date of
such State or local law. If any requirement for the commencement of such proceedings is imposed by a State
or local authority other than a requirement of the filing
of a written and signed statement of the facts upon
which the proceeding is based, the proceeding shall be
deemed to have been commenced for the purposes of
this subsection at the time such statement is sent by

App. 30
registered mail to the appropriate State or local authority.
(d) State or local enforcement proceedings; notification of State or local authority; time for action on charges by Commission
In the case of any charge filed by a member of the Commission alleging an unlawful employment practice occurring in a State or political subdivision of a State
which has a State or local law prohibiting the practice
alleged and establishing or authorizing a State or local
authority to grant or seek relief from such practice or
to institute criminal proceedings with respect thereto
upon receiving notice thereof, the Commission shall,
before taking any action with respect to such charge,
notify the appropriate State or local officials and, upon
request, afford them a reasonable time, but not less
than sixty days (provided that such sixty-day period
shall be extended to one hundred and twenty days during the first year after the effective day of such State
or local law), unless a shorter period is requested, to
act under such State or local law to remedy the practice alleged.
(e) Time for filing charges; time for service of
notice of charge on respondent; filing of charge
by Commission with State or local agency; seniority system
(1) A charge under this section shall be filed within
one hundred and eighty days after the alleged

App. 31
unlawful employment practice occurred and notice of
the charge (including the date, place and circumstances of the alleged unlawful employment practice)
shall be served upon the person against whom such
charge is made within ten days thereafter, except that
in a case of an unlawful employment practice with respect to which the person aggrieved has initially instituted proceedings with a State or local agency with
authority to grant or seek relief from such practice or
to institute criminal proceedings with respect thereto
upon receiving notice thereof, such charge shall be filed
by or on behalf of the person aggrieved within three
hundred days after the alleged unlawful employment
practice occurred, or within thirty days after receiving
notice that the State or local agency has terminated
the proceedings under the State or local law, whichever
is earlier, and a copy of such charge shall be filed by
the Commission with the State or local agency.
(2) For purposes of this section, an unlawful employment practice occurs, with respect to a seniority system that has been adopted for an intentionally
discriminatory purpose in violation of this subchapter
(whether or not that discriminatory purpose is apparent on the face of the seniority provision), when the
seniority system is adopted, when an individual becomes subject to the seniority system, or when a person
aggrieved is injured by the application of the seniority
system or provision of the system.
(3)(A) For purposes of this section, an unlawful employment practice occurs, with respect to discrimination in compensation in violation of this subchapter,

App. 32
when a discriminatory compensation decision or other
practice is adopted, when an individual becomes subject to a discriminatory compensation decision or other
practice, or when an individual is affected by application of a discriminatory compensation decision or other
practice, including each time wages, benefits, or other
compensation is paid, resulting in whole or in part
from such a decision or other practice.
(B) In addition to any relief authorized by section
1981a of this title, liability may accrue and an aggrieved person may obtain relief as provided in subsection (g)(1), including recovery of back pay for up to two
years preceding the filing of the charge, where the unlawful employment practices that have occurred during the charge filing period are similar or related to
unlawful employment practices with regard to discrimination in compensation that occurred outside the
time for filing a charge.
(f) Civil action by Commission, Attorney General, or person aggrieved; preconditions; procedure; appointment of attorney; payment of fees,
costs, or security; intervention; stay of Federal
proceedings; action for appropriate temporary
or preliminary relief pending final disposition of
charge; jurisdiction and venue of United States
courts; designation of judge to hear and determine case; assignment of case for hearing; expedition of case; appointment of master
(1) If within thirty days after a charge is filed with
the Commission or within thirty days after expiration

App. 33
of any period of reference under subsection (c) or (d),
the Commission has been unable to secure from the respondent a conciliation agreement acceptable to the
Commission, the Commission may bring a civil action
against any respondent not a government, governmental agency, or political subdivision named in the
charge. In the case of a respondent which is a government, governmental agency, or political subdivision, if
the Commission has been unable to secure from the respondent a conciliation agreement acceptable to the
Commission, the Commission shall take no further action and shall refer the case to the Attorney General
who may bring a civil action against such respondent
in the appropriate United States district court. The
person or persons aggrieved shall have the right to intervene in a civil action brought by the Commission or
the Attorney General in a case involving a government,
governmental agency, or political subdivision. If a
charge filed with the Commission pursuant to subsection (b) is dismissed by the Commission, or if within
one hundred and eighty days from the filing of such
charge or the expiration of any period of reference under subsection (c) or (d), whichever is later, the Commission has not filed a civil action under this section
or the Attorney General has not filed a civil action in a
case involving a government, governmental agency, or
political subdivision, or the Commission has not entered into a conciliation agreement to which the person
aggrieved is a party, the Commission, or the Attorney
General in a case involving a government, governmental agency, or political subdivision, shall so notify the
person aggrieved and within ninety days after the

App. 34
giving of such notice a civil action may be brought
against the respondent named in the charge (A) by the
person claiming to be aggrieved or (B) if such charge
was filed by a member of the Commission, by any person whom the charge alleges was aggrieved by the alleged unlawful employment practice. Upon application
by the complainant and in such circumstances as the
court may deem just, the court may appoint an attorney for such complainant and may authorize the commencement of the action without the payment of fees,
costs, or security. Upon timely application, the court
may, in its discretion, permit the Commission, or the
Attorney General in a case involving a government,
governmental agency, or political subdivision, to intervene in such civil action upon certification that the
case is of general public importance. Upon request, the
court may, in its discretion, stay further proceedings
for not more than sixty days pending the termination
of State or local proceedings described in subsection (c)
or (d) of this section or further efforts of the Commission to obtain voluntary compliance.
(2) Whenever a charge is filed with the Commission
and the Commission concludes on the basis of a preliminary investigation that prompt judicial action is
necessary to carry out the purposes of this Act, the
Commission, or the Attorney General in a case involving a government, governmental agency, or political
subdivision, may bring an action for appropriate temporary or preliminary relief pending final disposition
of such charge. Any temporary restraining order or
other order granting preliminary or temporary relief

App. 35
shall be issued in accordance with rule 65 of the Federal Rules of Civil Procedure. It shall be the duty of a
court having jurisdiction over proceedings under this
section to assign cases for hearing at the earliest practicable date and to cause such cases to be in every way
expedited.
(3) Each United States district court and each
United States court of a place subject to the jurisdiction of the United States shall have jurisdiction of actions brought under this subchapter. Such an action
may be brought in any judicial district in the State in
which the unlawful employment practice is alleged to
have been committed, in the judicial district in which
the employment records relevant to such practice are
maintained and administered, or in the judicial district in which the aggrieved person would have worked
but for the alleged unlawful employment practice, but
if the respondent is not found within any such district,
such an action may be brought within the judicial district in which the respondent has his principal office.
For purposes of sections 1404 and 1406 of Title 28, the
judicial district in which the respondent has his principal office shall in all cases be considered a district in
which the action might have been brought.
(4) It shall be the duty of the chief judge of the district (or in his absence, the acting chief judge) in which
the case is pending immediately to designate a judge
in such district to hear and determine the case. In the
event that no judge in the district is available to hear
and determine the case, the chief judge of the district,
or the acting chief judge, as the case may be, shall

App. 36
certify this fact to the chief judge of the circuit (or in
his absence, the acting chief judge) who shall then designate a district or circuit judge of the circuit to hear
and determine the case.
(5) It shall be the duty of the judge designated pursuant to this subsection to assign the case for hearing
at the earliest practicable date and to cause the case to
be in every way expedited. If such judge has not scheduled the case for trial within one hundred and twenty
days after issue has been joined, that judge may appoint a master pursuant to rule 53 of the Federal Rules
of Civil Procedure.
(g) Injunctions; appropriate affirmative action;
equitable relief; accrual of back pay; reduction
of back pay; limitations on judicial orders
(1) If the court finds that the respondent has intentionally engaged in or is intentionally engaging in an
unlawful employment practice charged in the complaint, the court may enjoin the respondent from engaging in such unlawful employment practice, and
order such affirmative action as may be appropriate,
which may include, but is not limited to, reinstatement
or hiring of employees, with or without back pay (payable by the employer, employment agency, or labor organization, as the case may be, responsible for the
unlawful employment practice), or any other equitable
relief as the court deems appropriate. Back pay liability shall not accrue from a date more than two years
prior to the filing of a charge with the Commission.

App. 37
Interim earnings or amounts earnable with reasonable
diligence by the person or persons discriminated
against shall operate to reduce the back pay otherwise
allowable.
(2)(A) No order of the court shall require the admission or reinstatement of an individual as a member of
a union, or the hiring, reinstatement, or promotion of
an individual as an employee, or the payment to him
of any back pay, if such individual was refused admission, suspended, or expelled, or was refused employment or advancement or was suspended or discharged
for any reason other than discrimination on account of
race, color, religion, sex, or national origin or in violation of section 2000e-3(a) of this title.
(B) On a claim in which an individual proves a violation under section 2000e-2(m) of this title and a respondent demonstrates that the respondent would
have taken the same action in the absence of the impermissible motivating factor, the court –
(i) may grant declaratory relief, injunctive relief
(except as provided in clause (ii)), and attorney’s
fees and costs demonstrated to be directly attributable only to the pursuit of a claim under section 2000e-2(m) of this title; and
(ii) shall not award damages or issue an order
requiring any admission, reinstatement, hiring,
promotion, or payment, described in subparagraph (A).

App. 38
(h) Provisions of chapter 6 of Title 29 not applicable to civil actions for prevention of unlawful
practices
The provisions of chapter 6 of Title 29 shall not apply
with respect to civil actions brought under this section.
(i) Proceedings by Commission to compel compliance with judicial orders
In any case in which an employer, employment agency,
or labor organization fails to comply with an order of a
court issued in a civil action brought under this section, the Commission may commence proceedings to
compel compliance with such order.
(j)

Appeals

Any civil action brought under this section and any
proceedings brought under subsection (i) shall be subject to appeal as provided in sections 1291 and 1292,
Title 28.
(k) Attorney’s fee; liability of Commission and
United States for costs
In any action or proceeding under this subchapter the
court, in its discretion, may allow the prevailing party,
other than the Commission or the United States, a reasonable attorney’s fee (including expert fees) as part of
the costs, and the Commission and the United States
shall be liable for costs the same as a private person.

App. 39
42 U.S.C. § 2000e-8
(a) Examination and copying of evidence related to unlawful employment practices
In connection with any investigation of a charge filed
under section 2000e-5 of this title, the Commission or
its designated representative shall at all reasonable
times have access to, for the purposes of examination,
and the right to copy any evidence of any person being
investigated or proceeded against that relates to unlawful employment practices covered by this subchapter and is relevant to the charge under investigation.
(b) Cooperation with State and local agencies
administering State fair employment practices
laws; participation in and contribution to research and other projects; utilization of services;
payment in advance or reimbursement; agreements and rescission of agreements
The Commission may cooperate with State and local
agencies charged with the administration of State fair
employment practices laws and, with the consent of
such agencies, may, for the purpose of carrying out its
functions and duties under this subchapter and within
the limitation of funds appropriated specifically for
such purpose, engage in and contribute to the cost of
research and other projects of mutual interest undertaken by such agencies, and utilize the services of such
agencies and their employees, and, notwithstanding
any other provision of law, pay by advance or reimbursement such agencies and their employees for

App. 40
services rendered to assist the Commission in carrying
out this subchapter. In furtherance of such cooperative
efforts, the Commission may enter into written agreements with such State or local agencies and such
agreements may include provisions under which the
Commission shall refrain from processing a charge in
any cases or class of cases specified in such agreements
or under which the Commission shall relieve any person or class of persons in such State or locality from
requirements imposed under this section. The Commission shall rescind any such agreement whenever it
determines that the agreement no longer serves the interest of effective enforcement of this subchapter.
(c) Execution, retention, and preservation of
records; reports to Commission; training program records; appropriate relief from regulation
or order for undue hardship; procedure for exemption; judicial action to compel compliance
Every employer, employment agency, and labor organization subject to this subchapter shall (1) make and
keep such records relevant to the determinations of
whether unlawful employment practices have been or
are being committed, (2) preserve such records for such
periods, and (3) make such reports therefrom as the
Commission shall prescribe by regulation or order, after public hearing, as reasonable, necessary, or appropriate for the enforcement of this subchapter or the
regulations or orders thereunder. The Commission
shall, by regulation, require each employer, labor organization, and joint labor-management committee

App. 41
subject to this subchapter which controls an apprenticeship or other training program to maintain such
records as are reasonably necessary to carry out the
purposes of this subchapter, including, but not limited
to, a list of applicants who wish to participate in such
program, including the chronological order in which
applications were received, and to furnish to the Commission upon request, a detailed description of the
manner in which persons are selected to participate in
the apprenticeship or other training program. Any employer, employment agency, labor organization, or joint
labor-management committee which believes that the
application to it of any regulation or order issued under this section would result in undue hardship may
apply to the Commission for an exemption from the application of such regulation or order, and, if such application for an exemption is denied, bring a civil action
in the United States district court for the district
where such records are kept. If the Commission or the
court, as the case may be, finds that the application of
the regulation or order to the employer, employment
agency, or labor organization in question would impose
an undue hardship, the Commission or the court, as
the case may be, may grant appropriate relief. If any
person required to comply with the provisions of this
subsection fails or refuses to do so, the United States
district court for the district in which such person is
found, resides, or transacts business, shall, upon application of the Commission, or the Attorney General in a
case involving a government, governmental agency or
political subdivision, have jurisdiction to issue to such
person an order requiring him to comply.

App. 42
(d) Consultation and coordination between
Commission and interested State and Federal
agencies in prescribing recordkeeping and reporting requirements; availability of information furnished pursuant to recordkeeping
and reporting requirements; conditions on availability
In prescribing requirements pursuant to subsection (c)
of this section, the Commission shall consult with
other interested State and Federal agencies and shall
endeavor to coordinate its requirements with those
adopted by such agencies. The Commission shall furnish upon request and without cost to any State or local agency charged with the administration of a fair
employment practice law information obtained pursuant to subsection (c) of this section from any employer,
employment agency, labor organization, or joint labormanagement committee subject to the jurisdiction of
such agency. Such information shall be furnished on
condition that it not be made public by the recipient
agency prior to the institution of a proceeding under
State or local law involving such information. If this
condition is violated by a recipient agency, the Commission may decline to honor subsequent requests pursuant to this subsection.
(e)

Prohibited disclosures; penalties

It shall be unlawful for any officer or employee of the
Commission to make public in any manner whatever
any information obtained by the Commission pursuant
to its authority under this section prior to the

App. 43
institution of any proceeding under this subchapter involving such information. Any officer or employee of
the Commission who shall make public in any manner
whatever any information in violation of this subsection shall be guilty of a misdemeanor and upon conviction thereof, shall be fined not more than $1,000, or
imprisoned not more than one year.

